Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

December 30, 2020

L. LIN WOOD, JR. V. BRAD RAFFENSPERGER, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner on December 30, 2020 I caused service to be made
pursuant to Rule 29 and the Temporary Order of April 15, 2020 on the following counsel for Respondents:
Adam M. Sparks
Halsey G. Knapp, Jr.
Joyce Gist Lewis
Susan P. Coppedge
Adam M. Sparks
KREVOLIN AND HORST, LLC
One Atlantic Center
1201 W. Peachtree Street, NW
Ste. 3250
Atlanta, GA 30309
Telephone: (404) 888-9700
Facsimile: (404) 888-9577
hknapp@khlawfirm.com
jlewis@khlawfirm.com
Jessica R. Frenkel*
coppedge@khlawfirm.com
PERKINS COIE LLP
1900 Sixteenth Street, Suite 1400 sparks@khlawfirm.com
Denver, CO 80202
Telephone: (303) 291-2300
jfrenkel@perkinscoie.com
Carey Miller
Josh Belinfante
Melanie Johnson
Robbins Ross Alloy Belinfante
Littlefield LLC
500 14th Street NW
Atlanta, GA 30318
Tel.: (678) 701-9381
Fax: (404) 856-3250
cmiller@robbinsfirm.com
jbelinfante@robbinsfirm.com
mjohnson@robbinsfirm.com

Health L. Hyatt
Stephen Beale
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, Washington 98101
Telephone: (206) 359-8000
hhyatt@perkinscoie.com
sbeale@perkinscoie.com
Marc E. Elias
Amanda R. Callais
Alexi M. Velez
PERKINS COIE LLP
700 Thirteenth Street NW
Suite 800
Washington, DC 20005
Telephone: (202) 654-6200
melias@perkinscoie.com
acallais@perkinscoie.com
avelez@perkinscoie.com

This service was effected by depositing one copy of the Petition for Writ of Mandamus in an official "first
class mail" receptacle of the United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 30th day of December 2020.

